The Department of Justice Office of the Inspector General today released a report examining the
personnel security process for Department of Justice (Department) contractors. The Office of the
Inspector General (OIG) review found that a significant number of the Department’s contractor cases
exceeded the statutory timeliness guidelines for completing the personnel security process. The OIG
also found that the Department did not maintain accurate personnel security information for all of its
contractors, and that there was no comprehensive Department-wide contractor security policy. Today’s
report follows one issued by the OIG in September 2012 as part of a two-part review assessing whether
the Department is effectively administering its personnel security processes.

Most of the cases the OIG examined in this report involved what are considered Public Trust
contractors, who do not require access to classified information but may be involved in policy making,
have major program responsibility, or fill other sensitive roles. For these contractors, the Office of
Personnel Management (OPM) requires agencies to complete their security adjudication and report
their determination to OPM within 90 days of receiving a completed background
investigation. However, we found that this process took longer than 90 days for nearly 10 percent of
the 3,434 Public Trust adjudications. Given that Public Trust contractors generally receive a waiver to
start work prior to the completion of the personnel security process and may work in close proximity to
sensitive systems and information, the OIG is concerned that delays in the personnel security process for
these individuals may present a security risk to the Department.

For contractors with National Security Information (NSI) security clearances, the Intelligence Reform and
Terrorism Prevention Act of 2004 (IRTPA) requires agencies to complete at least 90 percent of clearances
within an average of 60 days. However, the OIG’s assessment of the 363 NSI cases that the Department
completed during our review period found that they took an average of 107 days to complete. 359 of
these cases involved contractors with the FBI. We found that FBI contract linguists took particularly long
to investigate in comparison to other contractors by virtue of their contact with foreign nationals and
foreign travel.

The OIG review also found that procedures for tracking contractor personnel security information varied
significantly throughout the Department for both Public Trust and NSI positions, and that some
components did not maintain accurate information on contractor clearance levels or the status of
contractor background investigations. In some cases, components could not identify all of the
contractors working for them. These problems risk undermining the Department’s ability to ensure that
only individuals with appropriate clearance levels have access to sensitive and classified information.

In addition, the review found that the Department has not issued a comprehensive security policy that
covers contract employees. Although the Department has been working on a draft contractor security
policy since 2002, its existing policies include only minimal guidance for components to follow in
managing their contractor security programs, and the policies do not provide standards for such
essential topics as the frequency with which Public Trust contractors should be reinvestigated or the
maintenance of accurate rosters of current contract employees. As a result, we found that components
must frequently seek guidance from the Department about even routine contractor security issues.

The OIG’s report makes four recommendations to improve the Department’s management of its
personnel security process for contractors. The Department and its components have concurred with all
four recommendations.
The report released today can be found on the OIG’s website
at: http://www.justice.gov/oig/reports/2013/e1303.pdf.
